No.
IN THE
SUPREME COURT OF THE UNITED STATES
MARCUS TYLER SHEFIELD — PETITIONER
VS.
LORIE DAVIS, DIRECTOR— RESPONDENT
CERTIFICATE OF SERVICE
I, Marcus Tyler Sheffield , do swear or declare that on this date, Augustl3, 2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for deliveiy within 3 calendar days.
The names and addresses of those served are as follows:
Ms. Lori Brodbeck, Assistant Attorney General of Texas, P.O. Box 12548, Austin, Tx. 78711.
I declare under penalty of perjury that the foregoing is true and correct.
Executed On August^ 2020
Respectfully submitted:

4T7
Marcus Tyler Sheffield

8

